CERTIFICATE OF SERVICE
No. TBD
Mimi Korman
Petitioner(s)
v.
Julio Iglesias
Respondent(s)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Mimi
Korman Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Steven Eric Eisenberg
Eisenberg Lehman, PLLC
121 Alhambra Plz Ste 1500
Coral Gables, FL 33134
(786) 709-9321
seisenberg@eisenberglehman.com
Counselfor Julio Iglesias

Lucas'SeDeus

September 18, 2019
SCP Tracking: Korman-1700 NE 105 Street-Cover White

